    August 5, 2004




Financial Management
U.S. Army Corps of Engineers
Financial Information Imported into
the Defense Departmental Reporting
System – Audited Financial
Statements
(D-2004-107)




                  Department of Defense
              Office of the Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CEEMIS                Corps of Engineers Enterprise Management Information System
CEFMS                 Corps of Engineers Financial Management System
DDRS                  Defense Departmental Reporting System
DOP                   Desk Operating Procedure
FMR                   Financial Management Regulation
GLAC                  General Ledger Account Code
IG DoD                Inspector General of the Department of Defense
USACE                 U.S. Army Corps of Engineers
USSGL                 U.S. Standard General Ledger
              Office of the Inspector General of the Department of Defense
Report No. D-2004-107                                                                    August 5, 2004
      (Project No. D2004FI-0067)

                U.S. Army Corps of Engineers Financial Information
                 Imported into the Defense Departmental Reporting
                       System - Audited Financial Statements

                                        Executive Summary

Who Should Read This Report and Why? DoD and U.S. Army Corps of Engineers
(USACE) accounting personnel who prepare the USACE Civil Works financial
statements should read this report. It discusses undocumented adjustments in the
USACE Civil Works financial information that resulted in the loss of an audit trail
between the financial statements and the Corps of Engineers Enterprise Management
Information System.

Background. The USACE Finance Center provides operational finance and accounting
support for USACE and prepares the USACE Civil Works financial statements. The
USACE Civil Works principal financial statements consist of a consolidated balance
sheet, a consolidated statement of net cost, a consolidated statement of changes in net
position, a combined statement of budgetary resources, and a combined statement of
financing. The three financial systems USACE accountants use to prepare financial
statements are: the Corps of Engineers Financial Management System, the Corps of
Engineers Enterprise Management Information System, and the Defense Departmental
Reporting System – Audited Financial Statements. USACE must transfer the data from
its accounting system into the Defense Departmental Reporting System – Audited
Financial Statements. Audit trails that trace transactions from their initial source through
all stages of related system processing are mandatory Federal financial system
requirements.

Results. The financial information imported into the Defense Departmental Reporting
System – Audited Financial Statements and then used to prepare the USACE Civil Works
financial statements was unreliable. The USACE Finance Center did not have effective
controls to ensure the reliability of accounting information transferred from the Corps of
Engineers Enterprise Management Information System to the Defense Departmental
Reporting System – Audited Financial System. During the transfer process, Finance
Center personnel made $3.1 billion (net value)* in undocumented adjustments at year-end
FY 2003, and $(323.8) million (net value) in undocumented adjustments at first quarter
FY 2004. USACE should update its current operating procedures to comply with DoD
policy and Federal system requirements. (See the Finding section of the report for the
detailed recommendations.)



*
    The net value is the arithmetic sum of all undocumented adjustments. Parentheses indicate a negative
    value.
Management Comments. The U.S. Army Corps of Engineers concurred with the
recommendation; therefore, no further comments are required. See the Finding section of
the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                       i

Background                                             1

Objectives                                             3

Finding
     Data Transfer Procedures                          4

Appendixes
     A. Scope and Methodology                           9
         Management Control Program Review              9
         Prior Coverage                                10
     B. Adjustments Listed by General Ledger Account   11
     C. Report Distribution                            17

Management Comments
     U.S. Army Corps of Engineers                      19
Background
    U.S. Army Corps of Engineers. The U.S. Army Corps of Engineers (USACE)
    employs approximately 34,600 civilian and 650 military employees, and provides
    engineering services to the Army and to the Nation. The USACE Finance Center
    in Millington, Tennessee, provides operational finance and accounting support for
    USACE, including the preparation of USACE Civil Works financial statements.
    The Finance Center is also responsible for the USACE financial management
    systems—performing research, analysis, development, installation, and
    maintenance.

    Federal Financial Management Improvement Act of 1996. The Federal
    Financial Management Improvement Act of 1996 requires that a reporting entity’s
    financial reporting systems substantially comply with Federal management
    systems requirements, Federal accounting standards, and the U.S. Standard
    General Ledger (USSGL) at the transaction level.

             Federal Accounting System Requirements. The financial reporting
    system is one component of the financial management system. The financial
    reporting system should include audit trails to the systems where data was
    originally entered, and to adjustments that have been made. Audit trails are
    critical to providing documentary support for transactions and balances
    maintained by the Core financial system.

           The Joint Financial Management Improvement Program provides
    requirements for Federal financial management systems in two documents: the
    “Framework for Federal Financial Management Systems,” January 1995, and
    “Core Financial System Requirements,” November 2001. The Joint Financial
    Management Improvement Program defines an integrated financial management
    system as “a unified set of financial systems and the financial portions of mixed
    systems encompassing the software, hardware, personnel, processes (manual and
    automated), procedures, controls, and data necessary to carry out financial
    management functions, manage financial operations of the agency, and report on
    the agency’s financial status to central agencies, Congress, and the public.”

            DoD Financial Management Regulation. The DoD Financial
    Management Regulation 7000.14-R (FMR), Volume 1, Chapter 3, implements
    financial management system requirements for DoD. Volume 1, Chapter 3 states
    that audit trails are a key accounting requirement with which DoD accounting
    systems must reasonably comply. Financial transactions must be adequately
    supported and traceable to individual source records. Audit trails facilitate the
    tracing or replicating of a transaction from its source to the resulting record or
    report, and from the resulting record or report back to the source.

           The DoD FMR, Volume 6A, Chapter 2 requires that any adjustment be
    supported by written documentation with enough detail to provide an audit trail to
    the source transaction requiring the adjustment. The written documentation
    should include:

           •   the rationale or justification for the adjustment,


                                          1
       •   detailed number and dollar amounts,

       •   the date of the adjustment, and

       •   the name and position of the individual approving the adjustment.

U.S. Government Standard General Ledger Codes. The USSGL chart of
accounts includes both proprietary and budgetary general ledger account codes
(GLACs). Proprietary GLACs are used to record assets, liabilities, equity,
revenues, expenses, and miscellaneous gains and losses. Budgetary GLACs are
used to record the receipt and use of budgetary authority provided by the
Congress. Each USSGL GLAC is identified by a basic four-digit number to
which Federal agencies are allowed to add digits to meet agency-specific
requirements. Although agencies may expand the numbering system, their
subsidiary accounts must consolidate into the four-digit USSGL GLACs plus any
applicable attributes. The U.S. Treasury Financial Management Service defines
the GLACs that make up the USSGL in Treasury Financial Manual releases.

USACE Civil Works Financial Statements. The USACE Civil Works principal
financial statements consist of a consolidated balance sheet, consolidated
statements of net cost and changes in net position, and combined statements of
budgetary resources and financing. Table 1 shows reported amounts for total
assets, total liabilities, net cost of operations, and total budgetary resources.



    Table 1. Selected USACE Civil Works Financial Statement Amounts
                              (in billions)

                                  Year-end FY 2003       First Quarter FY 2004

 Total Assets                           $38.4                   $42.1
 Total Liabilities                           3.5                   2.9
 Net Cost of Operations                      9.0                   0.8
 Total Budgetary Resources               14.8                    11.6


Compilation of the Financial Statements. The three financial systems related to
the compilation, or preparation, of the USACE Civil Works financial statements
are the Corps of Engineers Financial Management System (CEFMS), the Corps of
Engineers Enterprise Management Information System (CEEMIS), and the
Defense Departmental Reporting System – Audited Financial Statements
(DDRS). CEFMS is a field level system that records financial transactions into
61 databases. Each month, CEFMS automatically transmits a general ledger trial
balance from each database to CEEMIS. CEEMIS consolidates this financial
information to create general ledger account balances at the appropriation level.
DDRS produces the USACE Civil Works financial statements based on the


                                    2
    USSGL chart of accounts and standard attributes. Each quarter the Finance
    Center manually transfers the data from CEEMIS into DDRS. The following
    figure illustrates the USACE Civil Works compilation process.



                      USACE Civil Works Compilation Process

       CEFMS
      databases                          Manual Processes

                       Financial Statement Crosswalk and         Import Sheets
                       Budgetary Reporting Spreadsheets
       CEEMIS                                                                            DDRS




                                            Manual Adjustments                   USACE Civil Works
                                                                                 Financial Statements



    Finance Center personnel used import sheets to transfer the CEEMIS trial balance
    data into DDRS. Six-digit GLACs comprise the chart of accounts used in both
    CEFMS and CEEMIS. For example, CEFMS and CEEMIS use 19 different
    GLACs (1010.10 through 1010.54) to represent Fund Balance With Treasury;
    while the USSGL uses only 1010. To facilitate posting to the import sheets,
    Finance Center personnel used financial statement crosswalk spreadsheets
    (crosswalk spreadsheets) to assign the six-digit CEEMIS GLACs to the
    corresponding four-digit USSGL GLACs. Once Finance Center personnel
    entered the crosswalk spreadsheet information onto the import sheets, the data
    were then uploaded into DDRS.

    Finance Center personnel also used budgetary reporting spreadsheets to reconcile
    the CEEMIS budgetary data. Any adjustments to budgetary GLACs should
    appear on these spreadsheets. Finance Center personnel used the data from the
    budgetary reporting spreadsheets to populate the budgetary GLACs on the import
    sheets.


Objectives
    Our overall audit objective was to determine whether USACE had effective
    controls over the transfer of financial information from CEEMIS to DDRS. We
    also reviewed the management control program as it related to the overall
    objective. See Appendix A for a discussion of the scope and methodology, prior
    coverage related to the objectives, and our review of the management control
    program.




                                            3
                    Data Transfer Procedures
                    The Finance Center did not have effective controls to ensure accounting
                    information transferred from CEEMIS to DDRS was reliable. During the
                    transfer process, Finance Center personnel made $3.1 billion (net value)*
                    in undocumented adjustments at year-end FY 2003, and $(323.8) million
                    (net value) in undocumented adjustments at first quarter FY 2004.
                    Finance Center personnel made these undocumented adjustments because
                    DoD policy and Federal system requirements for making accounting
                    adjustments were not adequately implemented. Specifically, the Finance
                    Center standard operating procedures:

                             •   contained obsolete guidance,

                             •   provided inadequate guidance for making adjustments in the
                                 information transfer process,

                             •   did not ensure crosswalk spreadsheets were current and
                                 correct, and

                             •   did not ensure that adjustments documented on the budgetary
                                 reporting spreadsheets were consistently applied or made.

                    As a result, the financial information imported into DDRS and used to
                    prepare the USACE Civil Works financial statements was unreliable.


Accounting Adjustments
           The audit trail between CEEMIS and DDRS was lost because of the
           undocumented accounting adjustments made between the crosswalk spreadsheets,
           the budgetary reporting spreadsheets, and the import sheets. Undocumented
           accounting adjustments, totaling $3.1 billion (net value) at year-end FY 2003 and
           $(323.8) million (net value) at first quarter FY 2004, occurred during the manual
           compilation processes. See Appendix B for a detailed list of the undocumented
           adjustments, listed by GLAC. Finance Center personnel used manual processes,
           which rendered the compilation process vulnerable to human errors and
           misstatements. Although the crosswalk spreadsheet and the budgetary reporting
           spreadsheet contain adjustment columns to record adjustments made to the
           CEEMIS trial balance data, Finance Center personnel did not record all the
           adjustments. In addition, there is no place on the import sheet to record
           adjustments, yet Finance Center personnel made adjustments while transferring
           the data from the crosswalk spreadsheets into the DDRS.




*
    The net value is the arithmetic sum of all undocumented adjustments. Parentheses indicate a negative
    value.



                                                      4
Standard Operating Procedures
    Finance Center personnel made undocumented adjustments despite DoD policy
    and Federal system requirements. Finance Center standard operating procedures
    were inadequate in four main areas of practice.

    Obsolete Procedures. Desk Operating Procedure (DOP) 089, “Audited Financial
    Statements (AFS) Compilation Process,” December 7, 2002, includes obsolete
    procedures. The Finance Center Director of Accounting instructed personnel to
    discontinue processing adjustments in CEEMIS during August 2003. However,
    DOP 089 states Finance Center personnel should record adjustments to reconcile
    the crosswalk spreadsheets in CEEMIS, and post the adjustments to the crosswalk
    spreadsheets. DOP 089 also erroneously indicates that any adjustment outside of
    DDRS is recorded in CEEMIS.

    Adjustment Procedures. DOP 089 does not provide documentation
    requirements for adjustments not recorded in CEEMIS or DDRS. DOP 089
    provides vague guidance on recording CEEMIS and DDRS adjustments in
    accordance with DoD FMR policy and procedures. The FMR citation does not
    reference the volume and chapter of the FMR. DOP 089 should include either a
    specific reference to DoD FMR, Volume 6A, Chapter 2 or explain the
    documentation requirements in detail. Properly supported adjustments should
    include an explanation for the adjustment, detailed number and dollar values, the
    date of the adjustment, and proper approval.

    Crosswalk Spreadsheets. There were no documented procedures to ensure that
    the crosswalk spreadsheets are up to date and free of errors. While DOP 089
    describes the use of the crosswalk spreadsheets, it does not discuss maintenance.
    The crosswalk spreadsheets must be current and correct to ensure that a clear
    audit trail exists between DDRS and the CEEMIS trial balance data. For
    example, our examination of the FY 2003 financial data discovered an error in the
    crosswalk spreadsheets that lost the audit trail between the $4.3 billion in
    Appropriations Used reported on the Year-End FY 2003 USACE Civil Works
    Consolidated Statement of Changes in Net Position – Unexpended
    Appropriations, and the $7.9 billion in Unexpended Appropriations – Used
    (GLAC 3107.00) contained in CEEMIS. The crosswalk spreadsheets used
    Expended Appropriations (GLAC 5700.00) instead of GLAC 3107.00.
    GLAC 3107.00 did not appear on the spreadsheets. Although Finance Center
    personnel corrected this error before the First Quarter FY 2004 compilation
    process, the audit trail to the published Year-End FY 2003 financial statements
    was lost.

    Budgetary Reporting Spreadsheets. DOP 089 does not discuss the compilation
    procedures for budgetary GLACs. In addition, there was an inconsistency in the
    application of adjustments recorded on the budgetary reporting spreadsheets to
    the USACE Civil Works data. While some adjustments accounted for or
    decreased the difference between the CEEMIS and the DDRS amounts, other
    adjustments created or increased differences.




                                        5
            •   The budgetary reporting spreadsheet for 96 X 3123 0000 contained a
                $53.2 million adjustment to GLAC 4160 (Anticipated Transfers –
                Current-Year Authority) that documented the entire difference
                between the CEEMIS and the DDRS amounts.

            •   The budgetary reporting spreadsheet for appropriation 96 X 8862 0000
                contained a $17.6 million adjustment to GLAC 4700 (Commitments)
                although there is no difference between the unadjusted CEEMIS trial
                balance amount and the import sheet amount.

            •   The budgetary reporting spreadsheet for 96 X 3130 0000 contained a
                $100.5 million adjustment to GLAC 4510 (Apportionments) although
                there was only a $5.6 million difference between the CEEMIS and the
                DDRS amounts.


Financial Statement Effect
     Financial information used to prepare the USACE Civil Works Year-End
     FY 2003 and First Quarter FY 2004 Financial Statements was unreliable.
     Without an audit trail, the accuracy and completeness of the USACE financial
     data could not be confirmed. The lack of an audit trail, created by the
     undocumented adjustments, resulted in the inability to trace amounts reported on
     the financial statements to the transaction source. The magnitude of the
     undocumented adjustments made by the Finance Center was sufficient to preclude
     a favorable opinion on the financial statements. Table 2 provides the net effect of
     the undocumented adjustments on the Year-End FY 2003 and First Quarter
     FY 2004 USACE Civil Works Financial Statements.




                                          6
       Table 2. Net Financial Statement Effect of Undocumented Adjustments
                                    (in billions)

                                                          Adjustments (decrease)
Financial Statement
                                                  Year-End FY 2003   First Quarter FY 2004

Balance Sheet                                           $2.9                 $2.7
Statement of Net Cost                                    (0.1)               (0.0)*
Statement of Changes in Net Position
– Cumulative Results of Operations                       3.1                 (3.9)

Statement of Changes in Net Position
– Unexpended Appropriations                              (3.0)                1.2

Statement of Financing                                   (0.2)               (0.1)
Statement of Budgetary Resources                         0                   (0.3)

* the net statement effect was $(14.9) million.




Command Actions
        Finance Center personnel are developing an automated program that compares, by
        four-digit USSGL, the CEEMIS trial balance data to the financial information
        entered into the import sheets. This program should allow accountants to identify
        any adjustments to the USACE financial information. These identified
        adjustments will need to be documented, supported, and reviewed in accordance
        with the DoD FMR, Volume 6A, Chapter 2.

        USACE will begin implementation of the Defense Departmental Reporting
        System – Budgetary during the FY 2004 compilation process. CEEMIS trial
        balances may be imported directly into the Defense Departmental Reporting
        System – Budgetary. The six-digit CEEMIS GLACs will be assigned to the
        four-digit USSGL GLACs using crosswalks internal to Defense Departmental
        Reporting System – Budgetary. The Defense Departmental Reporting System –
        Budgetary crosswalks, similar to the predecessor spreadsheets, require
        maintenance to remain current and up to date. This maintenance remains the
        responsibility of the Finance Center. While the implementation of Defense
        Departmental Reporting System – Budgetary may help document the adjustments
        to the CEEMIS trial balance data, the Finance Center procedures need to ensure
        that the support and review requirements are met.


                                                  7
Recommendation and Management Comments
    We recommend that the Director, U.S. Army Corps of Engineers Finance
    Center revise Desk Operating Procedure 089, “Audited Financial Statements
    (AFS) Compilation Process,” December 7, 2002. At a minimum the
    procedure should:

           1. Reflect the current processes used to transfer the Corps of
    Engineers Enterprise Management Information System trial balance data to
    the Defense Departmental Reporting System – Audited Financial Statements.

           2. Specify that all adjustments to the U.S. Army Corps of Engineers
    financial data be documented, supported, and approved in accordance with
    the DoD Financial Management Regulation, DoD 7000.14-R, Volume 6A,
    Chapter 2.

          3. Establish a requirement to update the desk operating procedure
    annually.

           4. Institute a quarterly review of the crosswalks to ensure that all
    Corps of Engineers Enterprise Management Information System general
    ledger accounts and corresponding U.S. Standard General Ledger accounts
    with attributes are included.

          5. Direct U.S. Army Corps of Engineers Finance Center personnel to
    perform all manual processes consistently.

    Management Comments. USACE concurred and stated that the actions on
    Recommendation parts 1., 2., and 3. would be completed August 2004, and the
    actions on Recommendation parts 4. and 5. would be completed June 2004. On
    July 12, 2004, USACE informed us that all parts of the Recommendation are
    complete.




                                      8
Appendix A. Scope and Methodology
    We reviewed the controls over the transfer of USACE Civil Works financial data
    from the CEEMIS to the DDRS. We reviewed the procedures and processes used
    by Finance Center personnel during the transfer process to determine whether the
    audit trail between the CEEMIS and the Year-End FY 2003 and First Quarter
    FY 2004 USACE Civil Works was complete.

    We analyzed Finance Center procedures related to the compilation of the USACE
    Civil Works financial statements. We examined the procedures used to produce
    the CEEMIS trial balances as of December 31, 2003, and determined their
    completeness. In addition, we performed an automated test of the compilation
    process, from the CEEMIS trial balances as of September 30, 2003, and
    December 31, 2003, to the Year-End FY 2003 and First Quarter FY 2004 USACE
    Civil Works Financial Statements. We also analyzed the plan for implementation
    of the Defense Departmental Reporting System – Budgetary at the Defense
    Finance and Accounting Service and the Finance Center.

    We performed this audit from January 2004 through April 2004 in accordance
    with generally accepted government auditing standards.

    Scope Limitation. We did not review the apparent variances between the
    balances reported on the Year-End FY 2003 and the First Quarter FY 2004
    financial statements. For example, Net Cost of Operations of $9 billion was
    reported for Year-End FY 2003 and $0.8 billion for the First Quarter FY 2004.
    We would have expected a proportional relationship for the Net Cost of
    Operations reported in the financial statements for Year-End FY 2003 and First
    Quarter FY 2004. The purpose of this audit was not to verify the information
    recorded in CEFMS or CEEMIS.

    Use of Computer-Processed Data. We used trial balance data queried out of the
    CEEMIS database to perform our analysis. We used the CEEMIS trial balance
    data as the starting point in our analysis of the transfer of the data from the
    CEEMIS into the DDRS. The objective of this audit was to examine the controls
    over this transfer process, not to determine the reliability of the financial data
    prior to the transfer. As such, we did not perform any detailed reliability testing
    of the CEEMIS trial balance data. The CEEMIS trial balance data, when
    reviewed in context with the other available evidence, validate the opinions,
    conclusions, and recommendations in this report.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”


                                         9
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management controls over the USACE Civil Works financial information
    imported into the DDRS. Specifically, we reviewed the Finance Center
    procedures to transfer data from CEEMIS into the import sheets. We also
    reviewed the adequacy of management’s self-evaluation of those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for USACE, as defined by DoD Instruction 5010.40. USACE
    management controls for the transfer of CEEMIS trial balance data into DDRS
    were not adequate to ensure that a complete audit trail existed between amounts
    reported on the USACE Civil Work financial statements and their source
    transactions. The recommendation, if implemented, will improve controls over
    the transfer of financial information from CEEMIS into DDRS. A copy of the
    report will be provided to the senior official responsible for management controls
    in USACE.

    Adequacy of Management’s Self-Evaluation. USACE officials did not identify
    financial statement compilation as an assessable unit and, therefore, did not
    identify or report the material management control weakness identified by the
    audit.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued three reports discussing the compilation of the USACE Civil
    Works financial statements. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2004-032, “Independent Auditor’s Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2003 Principal Financial
    Statements,” December 3, 2003

    IG DoD Report No. D-2004-023, “Corps of Engineers Financial Management
    System Accounting Processes,” November 18, 2003

    IG DoD Report No. D-2003-043, “Independent Auditor’s Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2002 Principal Financial
    Statements,” January 6, 2003




                                        10
       Appendix B. Adjustments Listed by General
                   Ledger Account

                                            Undocumented Adjustments (decrease)
       General Ledger Account           Year-End FY 2003          First Quarter FY 2004

1010    Fund Balance With Treasury       $47,116,827.92            $(19,267,700.18)
1310    Accounts Receivable                     76,541.02            No Difference
1319    Allowance for Loss on                   23,515.77                (7,140.21)
        Accounts Receivable

1340    Interest Receivable               11,682,950.32              35,048,850.94
1410    Advances to Others                13,125,885.13              No Difference
1511    Operating Materials and                (101,702.18)          No Difference
        Supplies Held for Use

1512    Operating Materials and                101,702.18            No Difference
        Supplies Held in Reserve for
        Future Use

1524    Inventory – Excess, Obsolete,           (55,230.01)          No Difference
        and Unserviceable

1525    Inventory – Raw Materials               11,106.81            No Difference
1610    Investments in U.S. Treasury    2,380,114,000.00          2,583,104,000.00
        Securities Issued by the
        Bureau of the Public Debt
1611    Discount on U.S. Treasury          (2,946,536.46)            (2,946,536.46)
        Securities Issued by the
        Bureau of the Public Debt

1612    Premium on U.S. Treasury         126,417,229.06             126,417,229.06
        Securities Issued by the
        Bureau of the Public Debt

1613    Amortization of Discount and      (36,814,070.26)           (46,335,965.24)
        Premium on U.S. Treasury
        Securities Issued by the
        Bureau of the Public Debt




                                          11
                                              Undocumented Adjustments (decrease)
       General Ledger Account             Year-End FY 2003          First Quarter FY 2004

1711    Land and Land Rights               701,445,715.49              No Difference
1720    Construction-in-Progress                      68.05            No Difference
1730    Buildings, Improvements, and              37,052.44            No Difference
        Renovations
1739    Accumulated Depreciation on                 (761.17)           No Difference
        Buildings, Improvements, and
        Renovations

1740    Other Structures and Facilities          324,160.38            No Difference
1749    Accumulated Depreciation on                 (468.75)           No Difference
        Other Structures and Facilities

1750    Equipment                                115,187.50            No Difference
1759    Accumulated Depreciation on              (68,178.93)           No Difference
        Equipment

2150    Payable for Transfers of          (103,938,327.73)             33,721,639.24
        Currently Invested Balances

2210    Accrued Funded Payroll and          (45,528,547.69)           (25,925,297.61)
        Leave

2213    Employer Contributions and          31,510,071.61              25,622,806.55
        Payroll Taxes Payable
2215    Other Post-Employment                    316,289.02               302,491.06
        Benefits Due and Payable

2225    Unfunded FECA Liability             (40,651,891.96)            No Difference
2980    Custodial Liability                 No Difference                 663,561.08
2990    Other Liabilities                 (137,333,350.33)               (656,420.87)
3100    Unexpended Appropriations –       (746,952,438.40)          1,726,498,118.82
        Cumulative

3101    Unexpended Appropriations –       5,692,708,047.39            147,304,479.66
        Appropriations Received




                                            12
                                             Undocumented Adjustments (decrease)
       General Ledger Account           Year-End FY 2003           First Quarter FY 2004

3102    Unexpended Appropriations –       (50,887,110.81)           (132,854,803.96)
        Transfers-In

3106    Unexpended Appropriations –        34,854,736.02              No Difference
        Adjustments

3107    Unexpended Appropriations –     (7,890,394,468.87)          (505,555,456.54)
        Used
3310    Cumulative Results of           (4,604,329,854.56)        (4,234,774,868.30)
        Operations

4114    Appropriated Trust or Special   3,570,861,248.09             301,705,194.36
        Fund Receipts

4119    Other Appropriations            4,027,056,421.00           1,797,034,181.54
        Realized

4124    Amounts Appropriated From               (19,500.00)           No Difference
        Specific Treasury-Managed
        Trust Fund TAFS – Payable –
        Rescinded

4126    Amounts Appropriated From         327,164,373.18              37,924,102.00
        Specific Treasury-Managed
        Trust Fund TAFS –
        Receivable
4128    Amounts Appropriated From          34,000,000.00              No Difference
        Specific Treasury-Managed
        Trust Fund TAFS – Payable

4145    Borrowing Authority                 (1,530,000.00)            No Difference
        Converted to Cash

4148    Resources Realized From             1,530,000.00              No Difference
        Borrowing Authority

4149    Borrowing Authority Carried        31,840,420.65              30,310,420.65
        Forward
4166    Allocations of Realized            No Difference              33,121,639.24
        Authority – To Be Transferred
        From Invested Balances




                                           13
                                             Undocumented Adjustments (decrease)
       General Ledger Account            Year-End FY 2003          First Quarter FY 2004

4167    Allocations of Realized          (681,563,061.35)            (40,510,774.97)
        Authority – Transferred From
        Invested Balances

4170    Transfers – Current-Year           (16,954,941.00)            No Difference
        Authority
4171    Non-Allocation Transfers of             309,000.00            No Difference
        Invested Balances –
        Receivable

4175    Allocation Transfers of           301,425,172.16             173,365,579.43
        Current-Year Authority for
        Non-Invested Accounts

4176    Allocation Transfers of Prior-     No Difference                      (0.50)
        Year Balances

4201    Total Actual Resources –         2,332,803,047.15          4,809,091,655.45
        Collected

4210    Anticipated Reimbursements       3,210,344,407.19          3,464,909,758.10
        and Other Income

4222    Unfilled Customer Orders           (11,709,269.78)           (12,588,763.52)
        With Advance

4251    Reimbursements and Other           19,209,120.61              23,386,184.94
        Income Earned – Receivable
4252    Reimbursements and Other         3,729,740,273.28            737,879,641.53
        Income Earned – Collected

4321    Actual Recoveries of Prior         No Difference                   5,000.00
        Year Obligations – Direct

4330    Funds Generated from Prior         No Difference                  (5,000.00)
        Year Recoveries

4394    Receipts Unavailable for           (53,087,765.50)           (63,246,110.32)
        Obligation Upon Collection

4450    Unapportioned Authority            No Difference                      (2.37)
4510    Apportionments                   (370,048,176.87)           (921,176,839.76)



                                           14
                                             Undocumented Adjustments (decrease)
       General Ledger Account            Year-End FY 2003          First Quarter FY 2004

4578    Program Received, Available,      566,155,883.82           1,048,359,101.45
        or Applied – Installation

4580    Allotments Received            (12,002,844,417.66)        (9,109,556,973.26)
4581    Automatic Reimbursement         (1,114,191,379.80)        (1,206,499,532.06)
        Authority
4582    Allotted Funded                 (2,196,731,763.41)        (1,624,714,492.64)
        Reimbursement Authority –
        Current Period

4610    Allotments – Realized           1,798,806,903.14           3,207,625,307.50
        Resources

4620    Unobligated Funds Not           (2,557,638,237.11)        (3,542,551,684.11)
        Subject to Apportionment

4630    Funds Not Available for                   (5,152.69)          52,873,745.20
        Commitment/Obligation

4650    Allotments – Expired                      (8,486.73)              (8,486.73)
        Authority

4700    Commitments                               (1,493.14)       1,161,525,000.22
4802    Undelivered Orders –                    (316,848.09)            (899,803.31)
        Obligations,
        Prepaid/Advanced
4901    Delivered Orders –               (445,888,409.02)           (346,935,386.16)
        Obligations, Unpaid

4902    Delivered Orders –               (498,707,368.12)           (343,462,219.77)
        Obligations, Paid

5200    Revenue From Services                          0             (26,122,358.16)
        Provided

5310    Interest Revenue – Other           (56,700,660.14)            No Difference
5311    Interest Revenue –                 No Difference             (14,910,789.51)
        Investments

5320    Penalties, Fines, and              No Difference                     232.29
        Administrative Fees Revenue



                                           15
                                           Undocumented Adjustments (decrease)
       General Ledger Account          Year-End FY 2003          First Quarter FY 2004

5600    Donated Revenue – Financial           (100,328.50)          No Difference
        Resources

5610    Donated Revenue –                     100,328.50            No Difference
        Nonfinancial Resources

5700    Expended Appropriations        7,815,975,986.51            491,105,780.82
5750    Expenditure Financing            (10,000,000.00)           (10,000,000.00)
        Sources – Transfers-In

5765    Nonexpenditure Financing        783,954,941.00              No Difference
        Sources – Transfers-Out

5800    Tax Revenue Collected           (838,803,382.08)          (167,306,307.66)
5900    Other Revenue                              (28.48)          26,134,361.73
5909    Contra Revenue for Other         No Difference                      15.32
        Revenue

5990    Collections for Others                 (10,213.50)             (11,873.57)
5991    Accrued Collections for                10,241.98                  (362.29)
        Others

6100    Operating Expenses/Program             39,241.09            No Difference
        Costs
6720    Bad Debt Expense                      (235,889.15)                (278.20)
6730    Imputed Costs                          (36,214.70)          No Difference
8801    Offset for Purchases of          No Difference             (34,566,385.80)
        Capitalized Assets

8802    Purchases of Capitalized         No Difference              34,566,385.80
        Assets

                Total                 $3,074,172,170.53          $(323,792,150.06)




                                         16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        18
U.S. Army Corps of Engineers Comments




                     19
20
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
Marvin L. Peek
Jack L. Armstrong
Paul C. Wenzel
Kathleen A. Furey
Craig W. Zimmerman
